Re:

Kimberly Watso et al. v. Jodi Harpstead, in her official capacity as Commissioner of
the Minnesota Department of Human Services, et al.
Supreme Court of the United States, No. 19-550
CERTIFICATE OF SERVICE
As per the requirements of Rule 33.2 and 29.5, I certify this 10th day of December 2019,

the undersigned served all counsel of record in the above-captioned matter, by mailing a single
copy of Correspondence to Clerk of Court of the United States Supreme Court Moving for
an Extension of Time to File a Response to Petition for Writ of Certiorari, via first class
mail postage prepaid, to the addresses below.
Robert L. Sirianni, Jr., Esq.
Brownstone, P.A.
P.O. Box 2047
Winter Park, Florida 32789
Telephone: 407-388-1900
robertsirianni@brownstonelaw.com

James R. Andreen
Erstad & Riemer, P.A.
200 Riverview Office Tower
8009 34th Avenue S.
Minneapolis, MN 55425
Telephone: 952-837-3249
jandreen@erstad.com

Counsel for Petitioner
Counsel for Scott County
Joseph Plumer
Plumer Law Office
9352 N. Grace Lake Road, S.E.
Bemidji, MN 56601
Telephone: 218-556-3824
jplumer@paulbunyan.net

Richard Alan Duncan
Faegre Baker Daniels, LLP
2200 Wells Fargo Center
90 S. 7th Street
Minneapolis, MN 55402
Telephone: 612-766-8612
richard.duncan@faegrebd.com

Counsel for Judge Mary Ringhand and Tribal
Court of the Red Lake Bank of Chippewa Indians Counsel for Judge John Jacobson and
Tribal Court of the Shakopee Mdewakanton
Sioux Community

[Signature on Page 2]

Dated: December 10, 2019

KEITH ELLISON
Attorney General
State of Minnesota

/s/ Aaron Winter
AARON WINTER
Assistant Attorney General
Atty. Reg. No. 0390914
445 Minnesota Street, Suite 1100
St. Paul, Minnesota 55101-2128
(651) 757-1453 (Voice)
(651) 282-5832 (Fax)
aaron.winter@ag.state.mn.us
Attorney for Jodi Harpstead, in Her Official
Capacity as Commissioner of the Department of
Human Services

2

